<html>
<title> - TRAGIC ANNIVERSARY OF THE 1989 TIANANMEN SQUARE PROTESTS AND MASSACRE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 TRAGIC ANNIVERSARY OF THE 1989 TIANANMEN SQUARE PROTESTS AND MASSACRE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2013

                               __________

                           Serial No. 113-69

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
81-341                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Wei Jingsheng, president, Wei Jingsheng Foundation...........     6
Ms. Chai Ling, founder, All Girls Allowed........................    10
Yang Jianli, Ph.D., president, Initiatives for China.............    23
David Aikman, Ph.D. (former Time magazine bureau chief in 
  Beijing).......................................................    34
Sophie Richardson, Ph.D., China director, Human Rights Watch.....    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Wei Jingsheng: Prepared statement............................     8
Ms. Chai Ling: Prepared statement................................    14
Yang Jianli, Ph.D.: Prepared statement...........................    25
David Aikman, Ph.D.: Prepared statement..........................    36
Sophie Richardson, Ph.D.: Prepared statement.....................    40

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Steve Stockman, a Representative in Congress from 
  the State of Texas: Prepared statement.........................    70
Written responses from Mr. Wei Jingsheng to questions submitted 
  for the record by the Honorable Steve Stockman.................    72


                     TRAGIC ANNIVERSARY OF THE 1989
                     TIANANMEN SQUARE PROTESTS AND
                                MASSACRE

                              ----------                              


                          MONDAY, JUNE 3, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:59 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Hearing will come to order. And good afternoon 
to everyone. Today, this week, the world remembers the dream 
that was and is the Tiananmen Square protests of 1989. And 
deeply honors the sacrifice endured by an extraordinarily brave 
group of pro-democracy, Chinese women and men who dared to 
demand fundamental human rights for all of China and for all 
Chinese. Twenty-four years ago today, the world watched in awe 
and wonder as hundreds of thousands of mostly young people 
peacefully petitioned the Chinese Government to reform and to 
democratize. China seemed to be the next impending triumph for 
freedom and democracy, especially after the collapse of 
dictatorships in the Soviet Union and among the Warsaw Pact 
nations. But when the People's Liberation Army poured into and 
around the square on June 3rd, the wonder of Tiananmen turned 
to shock, tears, fear, and a sense of helplessness.
    On June 3rd and 4th, and for days, weeks, and years, right 
up until today, the Chinese dictatorship delivered a barbaric 
response: Mass murder, torture, incarceration, the systematic 
suppression of fundamental human rights, and cover-up. The 
Chinese Government not only continues to inflict unspeakable 
pain and suffering on its own people, but the cover-up of the 
Tiananmen Square massacre is without precedent in modern 
history. Even though journalists, live television, and radio 
documented the massacre, the Chinese Communist party line 
continues today to deny, obfuscate, and to threaten anyone who 
deviates from the line.
    In December 1996, General Chi Haotian, the operational 
commander who ordered the murder of the Tiananmen protesters, 
visited Washington, DC, as the Chinese Defense Minister. See, 
he had gotten a promotion. Mr. Chi was welcomed by President 
Clinton at the White House with full military honors, including 
a 19-gun salute. A bizarre spectacle that I and others on both 
sides of the aisle strongly protested. Why do I bring this up? 
Minister Chi addressed the Army War College on that trip. And 
in answer to a question said, ``Not a single person lost his 
life in Tiananmen Square,'' and claimed that the People's 
Liberation Army did nothing more violent than the pushing of 
people during the 1989 protest. Imagine that. ``Not a single 
person lost his or her life.'' Are you kidding? The big lie, 
that big lie, and countless others like it, is the Chinese 
Communist party line.
    As chair of the subcommittee of the Foreign Affairs 
Committee that handled human rights at the time, I put together 
an emergency hearing within a couple of days, on December 18, 
1996, with witnesses who were there on the square, including 
Dr. Yang, a leader and survivor of the massacre, and including 
Time Magazine bureau chief, Dr. David Aikman, two of today's 
witnesses. We also invited Minister Chi Haotian, or anyone else 
from the Chinese Embassy who might want to come and give an 
account. He and they refused.
    I guess Minister Chi thought he was back in Beijing where 
the big lie is king and no one ever dares to do a fact check. A 
few days ago, the U.S. Department of State asked the Chinese 
Government to ``end the harassment of those who participated in 
the protests and fully account for those killed, detained, or 
missing.'' The response? The Chinese Foreign Ministry 
acrimoniously said that the U.S. should ``stop interfering in 
Chinese internal affairs so as not to sabotage U.S./China 
relations.'' Sabotage Sino-American relations because our side 
requests an end to harassment, because we request an 
accounting? Sounds to me like they have much to hide.
    President Obama, as we know, is scheduled to meet with 
Chinese President Xi Jinping on Friday and Saturday to discuss 
security and economic issues. A robust discussion of human 
rights abuses in China must be on the agenda and not in a 
superfluous or superficial way. It is time to get serious about 
China's flagrant abuse. The Chinese Government's appalling 
record should make us question even the topic that is at hand: 
Can a government that crushes the rights and freedoms of its 
own people be trusted on trade and on security issues?
    China today is the torture capital of the world. And 
victims include religious believers, ethnic minorities, human 
rights defenders, like Chen Guangcheng and Gao Zhisheng, and 
political dissidents. Hundreds of millions of women have been 
forced to abort their precious babies, pursuant the draconian 
one-child policy, which has led to gendercide, the violent 
extermination of unborn girls simply because they are girls. 
The slaughter of the girl-child in China is not only a massive 
gender crime, but it is a security issue as well. A witness at 
one of my earlier hearings, Valerie Hudson, author of a book 
called ``Bare Branches'' testified that the gender imbalance 
will lead, inevitably will lead to instability and chaos, and, 
as she posited, even war.
    She said that the one-child policy has not enhanced China's 
security, but demonstrably weakened it. The abnormal sex ratio 
of china does not bode well for its future, and notes that Nick 
Eberstadt has famously phrased, ``What are the consequences for 
a society that has chosen to become simultaneously both more 
gray and more male?''
    I hope policymakers both here in Washington and elsewhere 
pay close attention to our witnesses because Tiananmen Square 
and the massacre that followed there was a tipping point, and 
the lessons learned and employed ever since by the Chinese 
Government require much better understanding and due diligence 
on our part and a more effective response on our part. We still 
don't get it, what happened, post-Tiananmen Square.
    One of our witnesses, Dr. Yang, will testify that soon 
after Tiananmen, the Communist Party embraced the ubiquitous 
code of corruption to enrich the elite at the expense of the 
general public believing that, as he says in his testimony, 
economic growth means everything to the survival and the 
sustainability of the dictatorship. All of this, as he says, 
was made possible, thanks to the Tiananmen Square massacre and 
the political terror that was imposed on the country in the 
years following.
    Many of us on both sides of the aisle and Americans 
throughout this country and really people who believe in 
freedom around the world will never forget what took place in 
Tiananmen 24 years ago. The struggle for freedom in China 
continues. Someday, the people of China will enjoy all of their 
God-given rights. And a nation of free Chinese women and men 
will someday honor, applaud, and thank the heroes of Tiananmen 
Square and all of those who sacrificed so much and so long for 
freedom. I would like now to yield to my friend and colleague, 
Ms. Bass, for any opening comments.
    Ms. Bass. Mr. Chairman, thank you for convening today's 
hearing. I think it is pretty remarkable to hear you say that 
you were here when this happened and that you held the hearing 
a few days later.
    As you noted, this week marks 24 years since the world 
watched the bravery and courage of the Chinese people and the 
violent events that took place in Tiananmen Square in 1989. 
Like most people around the world, I remember exactly where I 
was when those events took place. That is why the images of 
Tiananmen Square are forever etched in our memories. It is 
important to note that there were other protests taking place 
across China as students and demonstrators of all ages took to 
the streets, and there was very little coverage about what was 
happening outside of Beijing.
    There were images of those brutalized, those bloodied, and 
of those who paid the ultimate sacrifice in their demand for 
greater freedoms, government accountability, and an end to 
corruption. Yet it is the image of a man standing in front of a 
line of tanks that we remember so well. This lone protester 
embodied that of all demonstrators in China and for many around 
the world in the days, years, and more than two decades since. 
That one seemingly plain individual could stand with such 
strength is and will ever be a remarkable and truly humbling 
moment.
    I will always remember this image because of what it 
represents, the struggle of people everywhere against 
insurmountable odds, yet it was a brave individual who showed 
that a simple act of protest was bigger and more powerful than 
propaganda, instruments of war, and unspeakable violence. I 
want to thank today's witnesses for participating in this 
hearing and reminding this committee of the important events of 
Tiananmen Square in the summer of 1989.
    Mr. Smith. Thank you, Ms. Bass.
    Like to now yield to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And thank each of you 
for being here today to testify. I look forward to hearing your 
testimony and certainly the lessons that we need to continue to 
learn as we address human rights across not only in China but 
across the world. It is hard to believe that it is some 24 
years ago that we are now looking back at Tiananmen Square. And 
yet the tragedy is one that should not easily be forgotten. It 
is one that we must keep fresh in our minds. It is one that we 
must learn from. Obviously, the protests there was sparked by 
the death of a reformer, someone who called for greater 
government transparency, freedom of speech, economic reforms. 
And, you know, that is a story that we have seen before.
    You know, China itself has freed up much of its economy, it 
has seen explosive growth. But yet, the human rights record is 
still abysmal. We need to make sure that we hold them 
accountable. We wouldn't stand for that here in our economy. 
And as we are part of a global economy, we can't stand for it 
in some of our greatest trading partners. In the Middle East in 
the last 2\1/2\ years, we have seen unrest happen across the 
Middle East following what some would call the Arab Spring. But 
really, in a large part, that unrest has the same underlying 
premise as Tiananmen Square: An oppressed people will 
eventually rise up, and they should.
    That is why this hearing is crucial. And the lessons from 
Tiananmen Square have clearly not been learned in China or 
abroad. And so I look forward to hearing your testimony and 
what we can learn from what has happened and what is happening 
and what hopefully will happen in the future and how we can 
highlight this particular problem to bring the end to the 
oppressive actions that continue to take back. And with that, I 
yield back, Mr. Chairman.
    Mr. Smith. Thank you, very much, Mr. Meadows.
    Mr. Stockman.
    Mr. Stockman. Mr. Chairman, I request that I can give you 
my remarks so you don't have to sit through the whole thing.
    Mr. Smith. Without objection.
    Mr. Stockman. But I want to say one thing, though. I 
remember watching on television, as many people have. And it 
was really heart-rendering and warm when I saw the replica of 
the Statue of Liberty and everything it stood for. And all I 
can say is when we saw the tanks rolling in and as they brought 
the--basically, I understand they were drugged, hyped-up people 
from outside of Beijing in to roll over those people as they 
were screaming for help and screaming for the rest of the 
people to cry out for freedom, I mean, I just--I--it broke my 
heart.
    And for all those that are still fighting for freedom in 
China, they represent one-quarter of this world population. And 
yet we seem to turn our backs on them again and again. And I am 
glad that the people here in this room stand up for freedom and 
stand up for those, and I will always remember that photograph. 
Yield back the balance of my time. Thank you.
    Mr. Smith. Thank you very much, Mr. Stockman.
    I would like to now introduce our very distinguished panel. 
Beginning first with Mr. Wei Jingsheng, who has served two jail 
sentences, totaling more than 18 years in China, for his pro-
democracy, pro-human rights work. A father of the democracy 
world movement, it was Wei Jingsheng who literally posted an 
essay, the fifth modernization, which he entitled 
``Democracy.'' And he had the courage to literally sign it--a 
lot of those postings were anonymous--he signed his, and for 
that he was incarcerated. I met with Wei very briefly when he 
was briefly let out in 1994.
    When the Chinese Government was seeking to get the 2000 
Olympics, they eventually got Olympics later on, but they 
thought releasing one high-profile political prisoner would be 
enough to make possible their getting the 2000 Olympics. That 
is how highly regarded he was, and is, to this day, for his 
democracy promotion and human rights promotion.
    In 1998, he founded and became the chairman of the Overseas 
Chinese Democracy Coalition, after he was exiled, of course. He 
is also President of the Wei Jingsheng Foundation and the Asia 
Democracy Alliance. He has written numerous articles and 
regularly speaks about human rights at a number of fora and in 
the media.
    We will then hear from Ms. Chai Ling, who was a key student 
leader in 1989 at Tiananmen Square during those very fateful 
days. When the military brutally crushed the protest on June 
4th, Chai Ling was named to the government's list of the 21 
most wanted students. She escaped from Beijing 10 months later. 
She secretly was hidden in a cargo box for 105 hours to escape 
China as she made her way to Hong Kong.
    She has since gotten an MBA from Harvard. She also is the 
founder of a group called All Girls Allowed, which speaks on 
the behalf of the girl-child who is so viciously victimized 
inside of China as part of the one-child-per-couple policy. She 
also co-founded the Jenzabar Foundation, which supports 
humanitarian efforts for student leaders.
    We will then hear from Dr. Yang Jianli. Dr. Yang is also a 
Tiananmen Square massacre survivor, and was held as a political 
prisoner in China from 2002 to 2007. He is a founder of the 
Initiatives for China/Citizen Power for China, Foundation for 
China in the 21st Century, and founder and organizer of 
Interethnic/Interfaith Leadership Conferences for the online 
publication of China E-Weekly. He co-authored a democratic 
constitution for China in 1993, and co-chaired The Geneva 
Internet Freedom Declaration in 2010. He has been elected to 
the Top 100 Chinese Public Intellectuals in each of the past 4 
years. He has also represented Mr. Liu Xiaobo at the 2010 Nobel 
Peace Price award ceremony. And we welcome him and thank him 
for his very influential writing and leadership.
    We will then hear from Dr. David Aikman, who reported for 
23 years for Time Magazine in more than 50 countries, including 
China. In 1989, he was in China reporting on student democracy 
protests and was present when the Tiananmen Square massacre 
took place. Dr. Aikman was born in the United Kingdom, but in 
1992, became a U.S. citizen. He left Time in 1994 and has since 
written several books and newspapers columns and lectured at 
numerous places around the world. He is currently a professor 
of history at Patrick Henry College. And, I would note, when he 
was with Time Magazine in Beijing, he was the bureau chief.
    We will then hear from Dr. Sophie Richardson, who is the 
China Director at Human Rights Watch. Dr. Richardson is the 
author of numerous articles on domestic Chinese political 
reform, democratization, and human rights in many Asian 
countries. She has testified before the European Parliament and 
the U.S. Congress, including my subcommittee. I thank you and 
welcome you again. She is the author of ``China, Cambodia, and 
Five Principles of Peaceful Coexistence,'' an in depth 
examination of Chinese foreign policy since 1954's Geneva 
Conference, including rare interviews with policymakers. So 
thank you all for being here. I would like to now turn to Mr. 
Wei Jingsheng.

   STATEMENT OF MR. WEI JINGSHENG, PRESIDENT, WEI JINGSHENG 
                           FOUNDATION

    [The following testimony and answers were delivered through 
an interpreter.]
    Mr. Wei. It has been 24 years since the June 4th massacre. 
I want to testify here about people's view on this massacre 
after 24 years and the impact on Chinese politics due to 
people's widespread view.
    The current widespread representative view of the Chinese 
people is different from the view more than 20 years ago. At 
that time, the most widely hold view was to ask for the redress 
of the June 4th massacre from the Chinese Communist Party. 
However, now more than half of the people's concern is not the 
issue of redress but the investigation of the people 
responsible for the crime and the demand for the Communist 
Party to plead guilty for this massacre.
    This change of attitude illustrates that people have 
gradually lost the illusion to the Communist Party. So-called 
redress is the wrong thing to be corrected. In the past, people 
asked for redress because they still had the illusion about the 
Communist Party and having misconception that Communist regime 
is a reasonable government. Now people have their changed their 
minds. This change illustrates that the people no longer 
consider Communist regime as a reasonable government. In other 
words, the Chinese Communist Government has seriously lost its 
legitimacy in the eyes of the Chinese people.
    Within the Communist leadership, the view regards the 
massacre 24 years ago is also changing. There are often rumors 
that the new leadership will redress June 4th massacre. This is 
a certain basis to political rumors in China; the Communist 
Party has the habit of using rumors for political struggles. 
Thus some of those rumors are often very accurate, which can 
reflect the closed-door struggle within the Communist Party.
    Every year before the anniversary of June 4th, the 
Communist Government is very nervous. To prevent people taking 
to the streets, the regime dispatch a large number of police 
and puts dissidents under surveillance and house arrest. This 
action alone results in lots of pressure over the Communist 
Party. The main cause of this pressure is due to the public 
opinion of the Chinese people. The pressure of the public 
opinion from the international community is another important 
reason. Over the years, those two pressure has become important 
reasons for the poor image of the Chinese Communist Government, 
both inside of China and internationally. This is a serious 
burden to the Chinese Government and is considered to be one of 
the several reasons for people to incite revolution.
    When the Communist leaders who participated in the massacre 
were still in power, those leaders consider this burden as what 
they must bear. But now the leaders who did not participate in 
the massacre has come into power and they consider as an extra 
unnecessary burden. Under the premise that the burden 
distresses them both diplomatically and internally, removing 
this burden and reducing the hidden risk of social instability 
has become an issue that the new leadership clique must 
consider.
    Some in the Chinese Communist leadership will naturally 
think of imitating successful international experience to ease 
people's lasting resentment against this massacre by way of 
redressing and reparation for the June 4th massacre, thus 
reduce the instability factors made by the previous 
leaderships. But other people in the leadership clique consider 
concessions to the people as reducing the authority of the 
Communist Party that will bring new instability. So they oppose 
the redress and reparation. Those two views are causing new 
conflicts within the Communist Party, and have increased the 
division within the Communist leadership.
    Of course, to the Communist Party, this seems not the most 
urgent and the biggest problem now. As China's economic crisis 
looms, as its intentions with the neighboring country 
intensify, improving the image and reduced domestic social 
pressure by June 4th redress, is not a particularly pressing 
problem. It now appears that the Communist regime still 
considers this as a historical problem that can be resolved by 
suppression.
    For the time being, they do not have the motivation to 
solve a historic problem completely. The guilty accountability 
and reparation of the June 4th massacre may have to wait until 
the collapse of the Communist regime in China.
    Thank you to the chairman and thank you to all the 
representatives.
    Mr. Smith. Mr. Wei, thank you very much for your testimony 
and for your extraordinary leadership.
    [The prepared statement of Mr. Wei follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Ling, Chai Ling.

     STATEMENT OF MS. CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Well, thank you to the honorable Chairman Chris 
Smith, and to all the honorable Members of Congress, thank you 
for your support with us in this difficult journey and battle. 
And particularly, Congressman Chris Smith, thank you for your 
tireless effort to uphold human rights for all the people in 
China, around the world. I am deeply honored to be given the 
opportunity to share the message of hope and redemption through 
Christ Jesus on the 24th anniversary of Tiananmen Square 
tragedy and massacre. My message is a summary of lessons 
learned from a 47-year life journey, of growing up in China, 
having led the Tiananmen Square movement, and now living in and 
observing America for the past 23 years. The longer, fuller 
version of these lessons are in my book called, ``A Heart for 
Freedom.''
    My message is for all the distinguished Congressional 
leaders and the foreign affairs policymakers like yourself, and 
also for American President Obama and China's new President Xi 
Jinping, who will meet on the West Coast in a few days. It is 
also for church leaders in both countries, and also for 
Tiananmen Square students, dissidents, victims, our families, 
and for the people at large. I believe, despite the constant 
terrorism threats coming from the Middle East and the 
turbulence around the rest of the world, a godly partnership 
between America and China holds the key to a peaceful, stable, 
and prosperous world. To understand this truth and lesson from 
the Tiananmen Square massacre is the beginning of forging this 
partnership. Allow me to now elaborate on my view here.
    It feels like yesterday, on the morning of June 3, 1989, 
Beijing, China, the sun was rising over the newly set up tents, 
which I ordered them to set up to house thousands of protesting 
students. Tiananmen Square was waking up to a soft female 
announcer's voice declaring the arrival of a new China. As a 
team of soldiers came across the Golden Water Bridge to raise 
the Chinese flag, for a moment the students, the soldiers, the 
flag in the square, the rising sun and the misty pink, blue sky 
all coexisted in peace and harmony in great anticipation of 
hope for a new China.
    That night all of this was brought to an end by a brutal 
massacre all of you witnessed. Ms. Bass, as you have said 
earlier, you remember exactly where you were, and so do we. I 
was there with my last 5,000 students standing in the square, 
surrounded by tanks and troops. We stood until the last hour 
when we had to leave the square, about 5 o'clock to 6 o'clock 
a.m. in the morning. There was much loss, death, injury, and 
imprisonment for all sides: Students, citizens, and soldiers. 
It is a wound that even 24 years later remains wide open in so 
many millions of Chinese people's hearts, and some are still 
paying the price with their loss and grief, like the mothers of 
the victims.
    Others are paying with their freedom, such as Liu Xiaobo, 
Bao Tong, Tan Zuoren, and many others still in prison. And I 
and many others today are paying the price of living in exile, 
unable to go back to our country where we grew up, for the past 
24 years. And after 10 months in hiding, after being put on--
after the massacre, I was put on a most wanted list and 
eventually came to America.
    I spent 20 years tirelessly searching for the truth behind 
the massacre. I tried to understand what had caused it to 
happen, what could have been done differently to stop it, and 
what was the hope for China? It was not until December 4, 2009 
when I finally give my life to Jesus, I found both. It was in 
pain and sorrow I discovered the truth behind the massacre. It 
was Deng Xiaoping's unhealed pain and unperceived fear of 
reality that conspired to justify by killing. I learned that 
Deng Xiaoping, the Premier who ordered the massacre, had his 
memory triggered by the peaceful student movement at Tiananmen 
Square, which reminded him of his pain and suffering during the 
cultural revolution and other previous political movements. I 
learned that a few other elder leaders were also triggered by 
the same kind of pain and suffering. And they all joined the 
conclusion that if we do not stop the movement, we will have 
nowhere to back down, and risk breaking our families and losing 
our loved ones.
    And so Li Peng, the Prime Minister in China at that time, 
together with the military, executed this massacre and used 
brutal force to gun down those peaceful protesters which they 
labeled anti-revolutionaries who aimed to overthrow the 
government. Because I was in such a key place, having played 
such a key leadership role in leading the Tiananmen movement, 
from my perspective, their perception and decision point could 
not be further from the truth. As a student leader, I had very 
little interest in either joining or overthrowing the Chinese 
Government.
    At the time, I was already applying to study in America. 
All I wanted was to be safe, to not have to relive the 
injustice, humiliation, defamation, isolation I suffered when I 
tried to overcome an earlier attempted rape by a college 
classmate. Many other students in Tiananmen Square were 
inspired by similar desires for simple justice and freedom from 
fear. Feng Congde, a key student leader of the movement, was 
motivated to overcome his own fear and terror he experienced 
when he was imprisoned for 18 hours in 1987. And Li Lu was 
there to overcome his grandfather's fate, who died as a 
rightist in prison under Mao's regime.
    But the unhealed pain and misperception led Deng to believe 
only a massacre would rescue and secure their power. Deng was 
convinced that the only option was to kill his own people. A 
decade before 1989, he was also the same leader who ordered 
China's one-child policy out of fear that it was needed in 
order prevent starvation. Many Chinese people still believe, 
subscribe, and defend the policy as of today.
    Unfortunately, exaggerated concentration of power without 
any democratic process allowed one person, Deng, to order both 
the killing that took place in Tiananmen Square, and the even 
larger and ongoing massacre against innocent women and babies 
through the brutal one-child policy.
    It was in November 2009, at your hearing, Congressman Chris 
Smith, that my eyes were opened up to the truth and brutality 
of the one-child policy when Wu Jian testified how she was 
dragged out from her hiding place and her baby, you know, had 
poison injected into her tummy. Her baby struggled and died, 
was chopped into pieces, taken out of her body, and my eyes 
were opened up and I realized I was trying to overcome the 
trauma I sustained under the Tiananmen massacre on my life. And 
there is today still an ongoing Tiananmen massacre taking place 
daily under China's one-child policy, harming the most 
vulnerable unborn children and their mothers.
    In the past 30 years, over 400 million babies were killed 
through forced and coerced abortions. Later on, I came to 
realize three of those 400 million babies were mine. The root 
is the killing of people to solve a problem, the common way the 
Chinese Government has been using over and over again, based on 
not understanding and respecting the sanctity of life. I never 
learned what ``sanctity of life'' meant, so I Googled it. And 
the word come back: It means the state or quality of being 
holy, sacred, or saintly, having ultimate importance, 
inviolability. And that is what it meant. How precious life is 
and should be treated.
    So it was in that moment I realized we were confronting 
something much bigger than what I had previous understood, much 
bigger than the Chinese Government and individual leaders. We 
are confronting a huge evil that could kill 400 million babies 
yet still make the entire world almost blind to this horrific 
crime. The evil one's scheme was exposed by a few faithful 
leaders and individuals. Congressman Chris Smith, yourself, and 
Congressman Frank Wolf, thank you for all of your effort in the 
past 30-plus years fighting against both the one-child policy 
and also defending the victims of the Tiananmen massacre. And 
it was your extraordinary perseverance and dedication to defend 
many, and your leadership and perseverance and dedication to 
defend human rights for all people that became the key that led 
me to the truth.
    It was this revelation of the true face of evil that led me 
to God through Jesus Christ on December 4, 2009, and helped me 
discover the true hope for China and for the people and for the 
leaders and for the victims and for myself. Congressman Chris 
Smith, you said earlier it was a sense of hopelessness of the 
evil that one felt that day when the massacre took place. Well, 
we all reacted with shock and horror. Even if we fight back, we 
still deep in our heart have a sense of hopelessness. Not until 
I found God, who is much bigger than that, we finally were able 
to receive and embrace that hope. Many of you grew up in 
America and heard the story that God created Heaven and earth; 
God created man and woman.
    And--in his image. But man and woman distrusted and 
disobeyed God. And through this sin, humanity fell. Jesus came 
to the earth and offered his life on the cross by obeying God 
all the way to death, and humanity was therefore redeemed 
through us accepting Jesus as our God and Savior. However, when 
we came from China, came to America, we never heard or were 
allowed to hear this truth. Many leaders in China do not know 
this precious truth. Had we known in 1989 that our struggles 
were not against flesh and blood, but against the rulers 
against authorities, powers of the dark world and against the 
spiritual forces of evil, and had the leaders accepted this 
truth, we may have been able to avoid the Tiananmen massacre, 
we may have been able to end the one-child policy.
    It is not too late to start a new beginning. God is not 
slow to keeping his promise. And some understand this as 
slowness, instead of his patience with us, not wanting anybody 
to perish but for everyone to come to repentance. And this is 
the same hope I have for America as well.
    And so--I know my time is limited. So I would like to say, 
as President Obama, President Xo Jinping meet together, I have 
a few very concrete requests for them: To reverse the anti-
revolutionary turmoil ``dong luan'' verdict against Tiananmen 
Square's peaceful protesters, to end the one-child policy in 
China, to end gendercide in China and in America, to end 
abortions in China and in America, to end the imprisonment of 
political dissidents Liu Xiaobo, Bao Tong, Tan Zuoren, and 
others, and to end the persecutions of churches and believers 
in China and in America.
    And I do, at this time, when many people after 24 years 
have now seen the Tiananmen massacre being ended and to be--the 
verdict being reverse, may be in process of giving a hope, but 
we know we have a hope and a future that cannot be shaken 
because God has promised that he will wipe every tear from our 
eyes and there will be no more death, no more sorrow, no more 
crying of pain: All these things will be gone forever. And all 
who are victorious will inherit all the blessings. And I will 
be their God and they will be my children. So with this 
promise, my prayer today is, Father God, do it swiftly. In 
Jesus' name we pray. Amen.
    Mr. Smith. Ms. Chai, thank you very much for your 
testimony. And again thank you for your extraordinary 
leadership over these many years.
    Ms. Chai. Thank you.
    [The prepared statement of Ms. Chai follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would now like to yield to Dr. Yang.

  STATEMENT OF YANG JIANLI, PH.D., PRESIDENT, INITIATIVES FOR 
                             CHINA

    Mr. Yang. Thank you, Mr. Chairman, and members of this 
committee for hosting this important and timely hearing. On the 
night of June 3, 1989, the Chinese Government ordered People's 
Liberation Army to clear Tiananmen Square, the center of the 
peaceful democracy movement that had been carried out by 
student and civilians in China's major cities for nearly 2 
months. It is now 3:40 in the morning on June 4th in Beijing. 
Exactly 24 years ago when in the early hours of June 4, 1989, 
troops opened fire on an armed students and civilians and 
cleared the square. During these hours, I was on Chung Lang 
Avenue near the square and saw with my own eyes more than 30 
people killed, including 11 students run over by tanks.
    As a survivor, I have testified before U.S. Congress on the 
massacre three times, including the 1996 hearing hosted by you, 
Mr. Chairman, when China's Defense Minister Chi Haotian visited 
Washington. Today I will not repeat what I said previously 
about what I saw during the massacre. Instead, I will try to 
deliver a few messages concerning the unresolved Tiananmen 
issues and other related questions.
    First, let me pass along a message from Ms. Ding Zilin, the 
head of the Tiananmen Mothers. Here is the letter:

          ``Dear Chairman, I want to first, on behalf of 
        Tiananmen Mothers, express my deep gratitude to you and 
        U.S. Congress for your concerned support for the 
        families of the victims of the Tiananmen massacre. 
        Since 1995, the Tiananmen Mothers have written 36 open 
        letters to the two Congresses of China and China's 
        leaders calling for the reversal of the government's 
        verdict on the Tiananmen incident and demanding truth, 
        compensation, and accountability. But we have not 
        received any reply from the government. We ask U.S. 
        Congress to urge President Barack Obama to demand of 
        President Xi Jinping in their June 8th summit that 
        China fulfill its international and domestic 
        obligations according to the standards of humanitarian 
        principles and universal values and bring the crimes 
        against the humanity committed by Deng Xiaoping, Li 
        Peng, and others, in 1989, to trial and reach a just, 
        fair resolution as soon as possible.
          ``The Chinese Government took the lives of our 
        children 24 years ago. And it has deprived us of the 
        right to freely mourn our beloved. Please ask President 
        Obama to urge President Jinping to respect our basic 
        rights as human beings. In the past 24 years, 33 
        members of the Tiananmen Mothers have passed away 
        yearning for justice. And the rest are aging in 
        despair. Age does creep. For us, time is particularly 
        precious. It is in nobody's interest for President Xi 
        to continue to be locked in his Chinese dream. Instead, 
        we hope he awakens to the stern reality and address 
        this stain on the modern history of China. Sincerely, 
        Ding Zilin on behalf of the Tiananmen Mothers.''

End of the letter.
    What can we say today about basic facts concerning the 
tragedy? According to human rights in China, more than 2,000 
people died in various Chinese cities on June 3rd and June 4th 
and the days of immediately following. The Tiananmen Mothers 
have documented the names of 202 victims in addition. In the 
followup to June 4th, more than 500 people were imprisoned in 
Beijing's Number 2 prison alone, and an unknown number were 
imprisoned in other Chinese cities. An additional unknown 
number were executed. However, the total number of dead, 
wounded, imprisoned, and executed remains unknown because the 
Chinese Government has refused to carry out a thorough 
investigation of events. The government's persecution of the 
Tiananmen participants continues today. Hundreds who escaped 
China in the aftermath of the Tiananmen massacre have been 
blacklisted from returning home, six of them have died 
overseas, and unknown numbers could not pay their last visit 
before they parents passed away or attend their funerals.
    Wu'er Kaixi, a student leader of 1989, has not been able to 
see his parents for 24 years. Much less documented is the lives 
of the ordinary participants and the Tiananmen prisoners. They 
and their family members have endured unspeakable suffering in 
the past 24 years. Most of them constantly subject to 
harassment and surveillance have found it extremely difficult 
to hold a regular job and to support their families. Some of 
them were later forced to leave the country. Today, one who 
recently came to United States is with us.
    I want to emphasize here that Tiananmen event is not just a 
one-time event. For the 24 years following the massacre, China 
has never stopped its human rights violations. In considering 
its record, we need look no further than these individuals, 
groups, events, and policies. Liu Xiaobo and his wife Liu Xia, 
Wang Bingzhang, Gao Zhisheng, Liu Xianbin, Chen Wei, Chen Xi, 
Guo Quan, Ding Jiaxi, Zhao Changqing, Hada, Nurmemet Yasin, 
Yang Tianshui, Dhondup Wangchen, Zhu Yufu, Tang Zuoren.
    Tibetans, Uyghurs, Mongolians, house churches follow forced 
abortions, forced evictions, and forced disappearances, black 
jails, and the list can go on and on.
    I urge U.S. Congress and the Government to stay alert to 
these severe human rights violations and put pressure on the 
Chinese Government to change their ways. In February 2011, 
Colonel Ghadafi justified his blood actions by pointing to what 
China did to those people on Tiananmen Square. This shows how 
ignoring crimes in one place only encourages them to spread 
elsewhere. The good news is that the U.N. suspended Libya's 
membership on the Human Rights Council for killing its own 
people. This same human rights standard should be applied by 
the U.N. to all of its member countries, including China. The 
Tiananmen Mothers and the meetings of victims of the Chinese 
dictatorship rightfully ask the United States to strongly 
oppose in a vote against the China regaining membership in the 
U.N. Human Rights Council and to encourage other democracies to 
similarly vote against it. Thank you.
    Mr. Smith. Dr. Yang, thank you very much for your 
leadership, for your very concrete suggestions, and for 
reminding us that the Tiananmen Square massacre continues to 
this day.
    [The prepared statement of Yang Jianli follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Aikman.

 STATEMENT OF DAVID AIKMAN, PH.D. (FORMER TIME MAGAZINE BUREAU 
                       CHIEF IN BEIJING)

    Mr. Aikman. Mr. Chairman and honorable members. Twenty-four 
years ago today, one of the most brutal assaults by any 
government in modern history on peaceful protesters began 
around 10 o'clock p.m. in the evening Beijing time. By the time 
the assault was over several hours later, hundreds, perhaps 
thousands of innocent civilians, including students, had been 
murdered by bullets to the Chinese People's Liberation Army, or 
crushed under the attacks of tanks and armored personnel 
carriers. How do we know? Because scores of Chinese and foreign 
eyewitnesses photographed the event and reported on it. I was 
one of them.
    The killing of innocent civilians is always a tragedy and 
sometimes it is a crime. Most countries in the world have been 
guilty of this at different times in their history, including 
my own country, the United States. Over a few centuries, we 
treated with great cruelty Africans brought over to this 
country as slaves and Native Americans. But we came to 
recognize these faults and to express contrition and an apology 
for them and even asked forgiveness for them.
    China is a great civilization and culture and has 
contributed innumerable blessings to the human community. China 
has also suffered much in recent centuries from foreign 
invasion and aggression. The result is that Chinese feel a deep 
sense of grievance when information about past and present 
injustices is suppressed. That sense of grievance is alive in 
China today about the events of June 3 and 4, 1989. What does 
it say about a great nation that it has to forbid Internet 
searches for the words, ``Tiananmen incident,'' or ``June the 
4th,'' or even ``candle,'' or most incredibly, even the 
numerals ``5, 3, 5,'' which point not to May having 35 days but 
to the date June the 4th?
    How can the authorities in power in China hope to have the 
respect of the world when they go through these medieval 
contortions to suppress information about China's own history? 
All the truth-respecting people all over the world are asking 
for is for China to start being honest about its own past and 
present, and to investigate in a transparent manner what 
happened 24 years ago. China claims that hooligans were 
responsible for June the 4th. That is nonsense. Some hooligans, 
no doubt, were present, just as some hooligans perhaps were 
present when Martin Luther King, Jr. set in motion the civil 
rights March on Washington in 1963. But only a complete idiot 
today would assert that the civil rights March on Washington 
was an event organized by hooligans.
    China today its experiencing a multitude of protests by 
citizens experiencing injustice. That multitude is growing 
annually at a rate that even alarms the Chinese Government. 
Sooner or later, if not addressed honestly those grievances 
will coalesce into a social and political movement which could 
cause a national turmoil in not just China, but in some of 
China's neighbors. For the sake of honesty, of sanity, and even 
regional peace, the Chinese authorities need to tell the world 
the truth. China claims to respect truth because it respects 
science, which requires truth to be respected. It will be a 
tragedy if China continues to hobble along, dragging its 
civilization and its recent history behind it, like an injured 
war veteran. Greatness of civilization requires truth, honesty, 
and modesty, not continued countenancing of lies like the 
Soviet regime of Joseph Stalin. Every Chinese and everyone in 
the world will feel a sigh of relief if China begins to be 
honest about its internal grievances, especially those stemming 
from June the 3rd to 4th, 1989. A wise man said 2,000 years 
ago, ``You will know the truth and the truth will set you 
free.''
    Mr. Smith. Dr. Aikman, thank you very much for your 
testimony and for being here today.
    [The prepared statement of Mr. Aikman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Richardson.

 STATEMENT OF SOPHIE RICHARDSON, PH.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thank you, Mr. Chairman, and members of the 
subcommittee. It is always a pleasure to be here. Thank you so 
much for your devotion and your leadership on these issues; to 
you, in particular, Mr. Wolf. I am used to being humbled in 
this room; I am especially so today by being on this panel. It 
is a little hard to add to or improve upon what has already 
been said. I think my task this afternoon is to try to put some 
of the events in a little bit of historical context. And it is 
really a fairly basic idea that Chinese Government denial and 
repression about Tiananmen in 1989 make it impossible for the 
wound of Tiananmen to heal and for people inside and outside 
China to trust the Chinese Government.
    We see in Tiananmen the origins or pathologies of many of 
the human rights abuses and broader problems that continue to 
plague China today. What did Tiananmen mean in 1989? Different 
things to different people. At a time when it seemed there 
could be a real possibility of political reform, it meant that 
people actually could challenge the government, that they could 
try to exercise key rights to expression, assembly and 
association, that they could try to influence a political 
process that still allowed them no formal role, and for some of 
the of the lions of Tiananmen, some of whom are sitting here 
today and who of some of whom continue to fight for their 
rights from towns and campuses and jails across China, this was 
the formative experience.
    The Chinese Government's reaction, on the other hand, made 
starkly clear that despite some vague signs of reformist 
impulses on the economic front, no dissent was to be brooked on 
political matters, a position that hasn't changed much today. 
For the international community, the events of June 4, 1989 
were shocking insight into what the government was like at a 
point in time when there had been somewhat limited contact the 
end of the Cold War began to wane, there was some debate, 
particularly about whether the Chinese Government could or 
would be more than a trading partner.
    What does Tiananmen mean now, 24 years later? I think the 
Chinese Government's active efforts to wholly expunge Tiananmen 
from the history books and persecute survivors and victims' 
family members, let alone to provide justice, means that China 
simply cannot in some ways move forward. And that until the 
government is willing to investigate those events, it also has 
to be viewed with profound skepticism as a partner.
    For Chinese activists, so many of the issues at stake then 
inform their work now, whether it is rule of law, holding 
officials to account, transparency, corruption, the right to 
protest. And many of them continue to confront precisely the 
same kinds of problems: Official obstruction, coverups, 
injustice, and denial. It is hard to offer a generalization 
about what Tiananmen means for Chinese people today, because as 
many panelists have described, it is very difficult to know 
about the events themselves. The Washington Post had an 
extraordinary article this morning. I would recommend all of 
you to reading it. It is an effort to speak to survivors about 
how they have--whether they have broached the subject with 
their children. And there is one paragraph I would like to read 
because I think it quite nicely summarizes the conundrum they 
face. William Wan wrote,

        ``For most parents, it comes down to a choice between 
        protecting their children from the past or passing on 
        dangerous and bitter truths about the authoritarian 
        society they continue to live under.''

    For the international community, I think Tiananmen 
continues to be, especially for governments who either seek to 
or feel obliged to have closer ties with the Chinese 
Government, Tiananmen becomes a very uncomfortable truth. It's 
there, it hasn't been dealt with, they don't want to have to 
talk about it. Some of they issue statements, some of them try 
not to. Periodically the EU tries to detach its arms embargo 
from accountability for Tiananmen. But there isn't a clear path 
forward or a clear message from all of those governments on how 
to deal with the legacy.
    What can be done about this? We are, of course, deeply 
appreciative of the efforts made by Members of Congress, 
although it is certainly my hope that as interest amongst 
members in China generally grows that more people will take an 
active interest in human rights issues as well. And while we 
certainly appreciate the--I think it's appropriate to describe 
them as elegiac statements that the State Department issues on 
the anniversary, I think it is not easy for them to do that. I 
think they face resistance from other parts of the 
administration. And that that alone is certainly not enough.
    I think the question really remains from President Obama on 
down whether the U.S. is going to help fight the long, hard 
fight for truth and justice and accountability for Tiananmen 
and for other human rights abuses. We are at a point in time 
now where the U.S. has pushed hard for accountability and 
justice in various parts of the world. We now have a U.N. 
Commission of Inquiry Into Human Rights Abuses in North Korea.
    We have the Magnitsky Act. And yet we are left wondering 
what exactly is on President Obama's human rights agenda for 
later in this week when he meets with President Xi. Will he ask 
for the release of political prisoners, as was once absolutely 
standard practice? Will President Obama explain to Xi Jinping 
that Shandong officials who have been responsible for 
tormenting Chen Guangcheng and his family members shouldn't 
bother trying to apply for visas to come to the United States 
under the new executive order. Will President Obama ask Xi 
Jinping to investigate the events of Tiananmen, and perhaps 
most important in this week, to allow victims' family members 
to mourn their dead.
    Xi Jinping has spoken about coming to the United States to 
try to establish a new relationship with the U.S. I think it is 
going to be very difficult to do until such time as the Chinese 
Government seeks to establish a new relationship with its own 
people, one in which it is finally willing to answer their 
questions about 1989. Thank you.
    [The prepared statement of Ms. Richardson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Richardson, thank you very much. You know, 
let us pick up on your last point about the upcoming summit on 
Friday and Saturday with President Obama and President Xi. What 
will President Xi's takeaway be if human rights are not 
robustly discussed, if individual cases like, you mentioned, 
Cheng Guangcheng are not brought up? Cheng Guangcheng sat right 
where Dr. Yang is sitting, just a few weeks ago and made a 
passionate appeal for his nephew and other family members who 
are being retaliated against. His nephew is really a surrogate 
for him. He is now free, relatively speaking, and his family, 
immediate family, but the other members of his family are being 
tortured, including his nephew. And Liu Xiaobo, a fellow Nobel 
Peace Prize winner, just like President Barak Obama, continues 
to languish in prison and, you know, his wife pretty much under 
house arrest.
    It seems--as you said, it used to be standard practice that 
there would be political prisoners, religious prisoners and 
others who would be released when summitry would occur. It 
seems to me that at the very least, our side, our President 
needs to make a very strong and aggressive--diplomatic, but 
aggressive appeal for these people who are suffering with such 
impunity.
    Anyone like to handle that? Dr. Yang?
    Mr. Yang. Yeah. This hearing is timely, because we all know 
there is going to be a summit between President Obama and 
President Xi. I strongly believe that President Obama should 
set the tone of U.S.-China relations in this summit for his new 
administration and for the new leadership of China.
    This is a crucial moment to signal to the leadership of 
China that the quality of its relationship with the United 
States largely depends on how it treats its own citizens and on 
whether it leads by the universally accepted human rights norms 
for its international and domestic policies.
    Failure on President Obama's part to speak up and address 
the human rights concerns will send the wrong message to the 
leadership, the new leadership, of China about U.S. priorities, 
and it may encourage the new leadership, the new Chinese 
leaders, to allow the human rights abuses to continue.
    While we don't oppose the United States vigorously engaging 
with China, with Chinese Government, on other issues, including 
economic relations, treaty relations, North Korea and other 
security issues, we believe and hope President Obama will 
engage with some vigor on human rights concerns. So I think it 
is a very good opportunity for him to raise the very important 
cases of prisoners, as Mr. Chairman just mentioned: Cheng 
Guangcheng, Liu Xiaobo, Wang Bingzhang, Gao Zhisheng. All these 
prisoners of conscience, we are not forgetting them. And 
President Obama should raise the cases in the meeting.
    Mr. Smith. Yes. Mr. Wei?
    Mr. Wei. I think that in the past few decades, the human 
rights diplomacy of the United States has established a very 
reputable image of the United States. Not only with good image, 
it has also produced a very effective result, which ultimately 
resulted in the collapse of the Communist clique. And 
Representatives here maybe still remember since the passage of 
PNTR, the permanent normal trade relations, with China, the 
human rights in China situation has been rapidly deteriorated.
    I think from the perspective to have a good new image of 
the United States or to establish this soft power for United 
States, the United States should really holding up this ticket 
of human rights again.
    I agree with Dr. Yang that right during the meeting between 
President Obama and President Xi, we really should do something 
regarding human rights; however, I feel more important for the 
United States Congress and the administration to design a new 
strategy and to put human rights on the front line and for the 
future.
    President Obama said that human rights and the universal 
value is a big advantage for United States. If so, why don't 
you take this advantage up front instead of waste your time 
with the Communist regime for other issues? So I hope more that 
the United States will have a new strategy, a new policy. I had 
European politicians ask me, what is the diplomacy of the 
United States? They don't have one. Because if you do not take 
advantage of your universal value, then indeed you do not have 
advantage diplomatically.
    Mr. Smith. Let me say briefly, when Wei Jingsheng was let 
out of prison in order to get the 2000 Olympics, I was actually 
in Beijing and had dinner with him. He said something that I 
will never forget. He said when American officials--any 
official, but especially American officials, especially the 
President of the United States--speaks precisely, 
transparently, but boldly about human rights, they beat us less 
when we are in the Laogai, or the gulags of China. When you are 
vacillating, weak and dismissive of the human rights agenda, 
they beat us more. It gets right down to that level, to the 
prison guards and to the prison wardens.
    And I am wondering, you know, for us to miss an opportunity 
to speak out boldly and aggressively on behalf of these 
dissidents, who are being tortured, harassed, and degraded in 
every way imaginable, for us not to take that, would you, the 
other panelists, agree with Mr. Wei's assessment that we need 
to have a more muscular human rights policy?
    And secondly, Dr. Yang, you made mention in your statement, 
and I thought it was very, very interesting, that 60 peaceful 
transitions to democracy have come as a surprise to the United 
States, because policymakers did not pay attention to the 
students, to the victims, to the activists, but we were focused 
like a laser beam, regrettably, on the political elite, who 
have very little regard for the human rights of other people.
    You also made a point, and I thought it was very profound, 
and I said in my opening that economic growth means everything; 
that they have inculcated in China among the elite a corruption 
that is indescribable, and that is what keeps them afloat, as 
you put it in your testimony, your written testimony. And I 
wonder if any of our panelists would like to speak to that.
    The conventional wisdom is that if we somehow trade more 
with China, they will matriculate from dictatorship to 
democracy, but as you have laid out, Dr. Yang, precisely the 
opposite has been occurring, especially since most favored 
nation status, now PNTR, was granted. You said that we are 
actually keeping the dictatorship afloat; that they have carved 
out the elite, they reward the elite, and through corruption 
and through gross human rights abuse, especially through 
torture, they are able to keep the dictatorship intact. If you 
would like to speak to that.
    Mr. Aikman. Yeah. Mr. Chairman, thank you.
    I think the Chinese Government would learn a lot by taking 
a few pages out of the history of South Africa. When the South 
African apartheid regime fell, many Black Africans were very, 
very angry at the way they had been treated by the regime that 
had just been overturned, and so what the South African 
Government decided to do was to have a truth and reconciliation 
committee.
    One of the things that is clear when you study China and 
modern Chinese history is the Chinese Communist Party is 
terrified of the Chinese people. They think that they may be 
thrown out of power for not being sufficiently nationalistic. 
They--and the Chinese people are terrified of the Communist 
Party and the power that they have.
    The only way out of this dilemma of absolutely polar 
opposition and fear is for some sort of reconciliation 
committee to come into place and to begin to examine the 
charges the Chinese people feel they have to lay at the base of 
the Communist Party and have the Communist Party be held 
accountable for those crimes which they have committed.
    Ms. Richardson. I actually just wanted to add a quick point 
onto your question about what happens if there is no really 
audible human rights-related intervention from President Obama 
this coming weekend. I think it is actually two different 
problems. One is that it would--it conveys such a lack of 
seriousness of purpose to fail to take that opportunity. I 
can't help but wonder for an administration that has said 
repeatedly in public that it takes a whole-of-government 
approach to promoting human rights issues, I can't help but 
wonder, you know, what was on Jack Lew's agenda a couple of 
weeks ago, what was on Tom Donilon's agenda, what were the 
human rights issues they were taking up in this whole-of-
government approach? It is very hard to know that.
    And if you say that you were going to make vigorous human 
rights diplomacy a part of all of your interactions, and then 
it is awfully hard to know what those were, it is very easy for 
Xi Jinping to walk away and say, I didn't get challenged about 
anything. Why should I take any of this terribly seriously?
    And that has a related problem, which I think is ratifying 
a sense of incredible exceptionalism that the Chinese Communist 
Party holds up. The Chinese may have signed on to international 
human rights covenants, but it is different. It gets to proceed 
on these matters its way. And to not be challenged on that, I 
think, only reinforces that sense. And so it is incredibly 
important to finally push back hard and clearly in a way that 
is audible not just to the kinds of people who are sitting in 
this room, but to a much broader audience in China, which is 
looking for some kind of leadership and some kind of 
responsiveness to speak to the kinds of problems they are 
dealing with every day.
    Mr. Smith. Thank you.
    Mr. Wei. I just want to put some addition. In the past, 
lots of American officials, including congressional 
Representatives, when they were dealing with the Chinese 
Communist Government, they felt a lot of those officials were 
very hard, like a piece of iron board, and they seemed to have 
the same opinions.
    In the first 20 years after June 4th massacre in 1989, 
indeed that was a sort of that situation, but in the past 4 
years or so, even within the Communist Government, there are 
people stand out and talking about human rights and universal 
values. So we should let President Obama know this is a good 
opportunity, because if there is a voice for human rights, then 
we could hear even more for human rights talks from the Chinese 
Government. So if we talk about human rights now, emphasize 
that, then it will have more impact to those officials within 
the Communist leadership, which also would have more impact to 
the people inside of China.
    Ms. Chai. I would like to add a few words.
    Mr. Smith. Please.
    Ms. Chai. I do believe that this Friday when President 
Obama meets with President Xi, not only does he need to 
emphasize the human rights importance for China, but it is 
crucial and necessary for American security to do so.
    And I want to remind all of us that President Abraham 
Lincoln, in his second inauguration speech about lack of 
justice to free the slaves, had called the severe casualty and 
loss in the war, saying,

        ``Fondly we hope, fervently do we pray that this mighty 
        scourge of war may speedily pass away. Yet if it be 
        God's will that it will continue until all the wealth 
        piled up by the bondsman's 250 years of unrequited toil 
        shall be sunk, and until every drop of blood drawn with 
        the lashes shall be paid by another drawn with a sword, 
        as was said 3,000 years ago, so still it must be said, 
        the judgments of the Lord are true and righteous 
        altogether.''

    There is a rumor that China today finished their first 
submarines. They are in the process of making five more. And 
America has the most submarines in the whole world, 16 of them. 
Is China going into an arms race against America?
    God gave us a blueprint for how we can achieve peace. I 
know today we use the words ``human rights,'' and ``democracy'' 
to replace the fundamental truth of God, but I think it is 
really important for us to go back to that. In Isaiah 32:17, 
God said, ``The fruit of their righteousness will be peace. Its 
effect will be quietness and confidence forever.'' So the path 
to peace is to act justly, love mercy, walk humbly with the 
Lord our God.
    And the crucial timing for President Obama to uplift and 
honor the tradition of faith America is founded upon, one 
Nation under God, is because this is the first beginning of 
President Xi Jinping's legacy. He is eager to learn, he is 
eager to build the right relationship with America. America 
must stand strong not just for this country, but for the world.
    Mr. Smith. Thank you.
    Dr. Yang? And then I will go to Mr. Meadows.
    Mr. Yang. At this point I want to address a myth, widely 
believed myth, in the international community. Actually I have 
been amazed by this well-entrenched myth, you know, believed by 
world leaders, the policymakers and the scholars. The myth goes 
as follow: That because China will punish those taking a strong 
stance on human rights with its growing economic power, 
affecting their all-important treaty relations with China, the 
human rights issue should take a back seat. That is a myth. But 
this myth is anything but tested. There is no past evidence to 
show it.
    We should ask--I list a lot of questions here. We should 
ask, what do--do you think, the world leaders, China will do in 
response to a strong human rights stance? Do you really believe 
that China will quit treaty with a country whose goods it needs 
because the country demands better treatment of its citizens? 
How much will affect your economy, for example, United States 
economy, and are you willing or able to accept this are to 
come? How much will it affect China's economy? And what does it 
mean to this regime?
    We all know that the only source of legitimacy for this 
regime to continue is economic well-being, so I think that is 
the last thing that they would try to jeopardize.
    Questions are, will China be willing or able to accept a 
cost? So let us calculate how much we spent on the Iraq War, 
which toppled a dictator. If China really retaliates against 
this country with its economic power, how much are we willing 
to pay to help topple China's dictatorship? How much less the 
American taxpayers will pay for the spending of defense if 
China becomes a democracy? So we should consider these 
questions.
    I found this is--you know, some fear is self-imposed fear. 
We have to test it. This means to break it. I, too, have past 
experience to show otherwise. I just give you a couple of 
examples.
    Number one, Liu Xiaobo was awarded the 2010 Nobel Peace 
Prize. The Chinese Government came out, fought to sanction 
Norway for this award, and just 4 days after award ceremony, 
December 14th, China and Norway struck an oil deal despite 
tensions. That is in the title of Wall Street Journal, and I 
read the first paragraph, okay: Beijing, China, oil field 
services limited. A unit of one of China's largest oil 
companies has signed a long-term oil-drilling contract with 
Norway's Statoil, demonstrating that Beijing's fury over the 
award of a Nobel Peace Prize to jailed dissident Liu Xiaobo may 
not stop major commercial deals.
    And most recent example is Cheng Guangcheng. Both the 
Congress and the executive branch took a very strong stance on 
his case last year, getting him successfully to United States. 
What happened afterward? We still have a normal relationship, 
treaty relationship. Nothing affected the relation of the two 
countries.
    And for Oslo, I went back in May 2011 to check. I come to a 
staff member in--you know, who is dealing with trade with China 
about the quota of salmon importing--imported to China. He told 
me officials, Chinese officials, who told him how to get around 
of the--you know, the sanction. So they have to go through Hong 
Kong to avoid the sanction.
    So I think this is--this myth we have to test to break.
    Mr. Smith. Thank you very much.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each of you 
for your testimony and obviously highlighting this on an 
ongoing basis. The chairman has been very vocal for a number of 
years on human rights violations and how we need to continue to 
not only highlight that, but address it.
    And I guess my concern with this hearing today is that I 
have been in this very room hearing a number of issues over the 
last months, whether it be child abduction, whether it be human 
trafficking, whether it be a one-child policy, a number of 
human rights violations and religious freedom violations not 
only in China, but in a number of countries, and yet finding a 
way to make that part of our negotiations or part of our 
foreign policy is very difficult to put in.
    And so, Dr. Yang, you mentioned that it had to have an 
economic component. And I would be interested, Dr. Richardson 
and Dr. Aikman, for you to comment on that. How do we highlight 
it more than just having President Obama mention it this week 
in terms of--that it is important? How do we get beyond the 
rhetoric and make sure that we let them understand that it is a 
critical thing that we are wanting to emphasize and have 
corrected?
    Dr. Aikman, you can go first.
    Mr. Aikman. Well, I go back to South Africa. In the 
pressure to get South Africa to change its policy of apartheid 
and to abandon it, there were various very strict trade 
regulations that American companies were willing to agree to 
force the South African Government to change its policy toward 
Black South Africans, and these policies were very effective. 
So I think on a smaller scale, American States and cities and 
corporations could put selective pressure on parts of the 
Chinese Government that deals with foreign trade to force them 
to adopt a more humane human rights policy.
    Mr. Meadows. Okay. Dr. Richardson?
    Ms. Richardson. I have a long list of suggestions, but I 
will give you my top three.
    Mr. Meadows. Okay.
    Ms. Richardson. There are certain issues for any government 
that are discomfiting and they desperately want to avoid having 
to talk about in public, so you can, you know, retrofit this 
depending on which government you are talking about. But I 
think there are three or four issues for the Chinese Government 
that simply have to be made inescapable topics of conversation 
at every single senior-level summit, regardless of whether it 
is about a security issue, an intelligence issue, a trade 
issue, you know; and it should be some combination of issues 
related to ethnic minorities, individual cases, or certain key 
aspects of the rule of law. And it is not difficult to figure 
out how to fit that into a whole-of-government approach.
    I am actually a proponent of a whole-of-government approach 
partly because often--you know, the Ministry of Foreign Affairs 
bureaucrats from China are very good at thwarting those 
conversations. Try to have that conversation with a different 
part of the Chinese Government, Ministry of Justice, the public 
security, and it is a very--I think it tends to be a very 
different conversation, in some cases much more effective. But 
doing that well requires that the President instructs Cabinet 
members to do this and creates an expectation that they will 
follow through on it, and they will be expected to report back.
    Look, I think there is also much to be said for the idea of 
setting out benchmarks on certain key issues. You know, there 
shouldn't be endless rounds, for example, of labor dialogues 
that don't have built into them specific concrete steps that 
the Chinese side needs to take in order for there to be another 
round of dialogue. And our single biggest complaint about the 
human rights dialogues is that having them at all, wholly apart 
from whether they are useful, has become the deliverable in and 
of itself; that simply to get one scheduled and to take place 
becomes the goal rather than to insist on certain kinds of 
changes being made.
    Mr. Meadows. So what you are saying is set a benchmark and 
then say we want to see these concrete--these three or five or 
six concrete steps toward reaching that benchmark needs to be 
part of our foreign policy?
    Ms. Richardson. Right. I mean, imagine, you know, there 
were some functional equivalent of the WTO for human rights 
issues. Right? I mean, there are standards that must be met, 
and if one party doesn't adhere to those, there are 
consequence. Right? I mean, obviously we are not going to 
establish WTO for human rights issues, but it is the same 
logic, that in order to have the next phase of a discussion, 
you have to show some commitment, some seriousness of purpose 
and some willingness to change, not that these dialogues just 
become an endless series of diplomatic interactions in and of 
themselves.
    Mr. Meadows. One of--one of the things that we look at, and 
Dr. Aikman mentioned South Africa, but one of the issues that 
we have is really one of stability, that their government right 
now wants to have this stable environment as there is a free 
flow of information via the Internet. And obviously the 
sanctioning of that creates, I guess, more freedom of speech, 
which creates perhaps an unstable environment within China or 
the Chinese Government.
    Where--should those be--should that be one of the 
benchmarks that we look at is Internet freedom and the ability 
of free speech within--and promoting that as part of their 
human rights? Dr. Yang?
    Mr. Yang. I have a very specific suggestion for the 
congressional resolution. Maybe my ideas were wild, but I have 
been thinking a measure, a tax benefit. And China is huge, of 
different provinces, although the governments of different 
level all have the nature, same nature, but the violations vary 
from place to place. So we may each year single out a number of 
provinces where the human rights record is really bad, and 
those who are doing business, American businessmen doing 
business in these provinces, will not enjoy a tax benefit, 
whatever they are, and encourage internal competition on human 
rights record.
    Mr. Meadows. So what you are saying is there is enough of a 
difference in human rights violations within provinces within 
China----
    Mr. Yang. Yes.
    Mr. Meadows [continuing]. That you can set that up?
    Mr. Yang. Yes. So there is a variation we can take 
advantage of, and we will encourage the provincial leaders to 
compete for human rights record.
    Mr. Meadows. And I see some nods there from Dr. Richardson 
and Dr. Aikman. You would concur with that?
    Mr. Aikman. Yes. I think it is quite compatible with 
China's disparate state governments competing with each other 
for foreign business to be able to reward those provinces that 
are more favorable to human rights by giving them economic 
benefits and by withholding them from the really strict regimes 
in other provinces.
    Mr. Yang. Yes. The local government officials, you know, we 
have two criterion, two criterion for the promotion of local 
officials: One is GDP; the other is stability. So GDP is a very 
important thing for all the local officials.
    Mr. Meadows. So which provinces would be most problematic 
when it comes to human rights?
    Mr. Yang. You know, Beijing, of course, is very 
problematic, and Sichuan is another one. In Sichuan we have Liu 
Xianbin, Chen Wei, Chen Xi, all sentenced recently to 10 years. 
They are all participants of the Tiananmen Square movement. And 
after they released, they resumed their activism and being 
arrested again and sentenced to long prison terms.
    So we can do the study very easy to come up with a record 
for each province. And if it is possible for the Congress to 
introduce such bill, I think it will help China to improve 
human rights very effectively.
    Mr. Meadows. And, Mr. Chairman, if you would, can I have 
one more question, please?
    So if you could comment, each one of you, and discuss 
perhaps the relationship between human rights and a democratic 
government versus the government that is there now. Are they 
mutually exclusive, or do we have to--do we have to have that? 
And I will start down on your end, Dr. Richardson.
    Ms. Richardson. You have hit upon a personal pet peeve of 
mine. I mean, look, it is black letter international law that 
governments are meant to be formed by free and fully 
enfranchised periodic elections. And last time I checked, the 
leadership transition that just took place was the function of 
denying 850 million people the right to vote, not premised on 
soliciting their views. The fact that the U.S. and many others 
failed to note that, as they regularly do around the world, is, 
to me, yet another example of Chinese exceptionalism.
    Do we know, if the Chinese people were allowed to vote 
freely tomorrow, who or what they would choose? I think that 
is--I think that is very hard to say. But is this--is the 
current permutation or could it be legitimately called a 
representative government? No.
    Mr. Meadows. Dr. Aikman.
    Mr. Aikman. Yeah. I think there are many components to a 
free society. Free elections are obviously very important, but 
the rule of law is even more important. If you have a society 
which has innumerable elections and doesn't have the rule of 
law, the protection of property rights, the protection of the 
right of free speech, free--the right of religious expression, 
you can have all the elections in the world, and you won't have 
freedom. China needs to be held to account on standards of the 
rule of law as much as standards of political democracy.
    Ms. Chai. Yes. I would like to make a comment. You know, 
God said man does not live on bread alone, but on every word 
that comes from the mouth of God.
    I do feel in the past 24 years, the U.S.-China relationship 
was mostly based on economic relationships, on bread, and not 
on the value and the word of God. And I do believe the leaders 
of China are eager to search for what would be the system that 
could really secure and create a just nation.
    The Tiananmen movement started on the eve of the death of 
reform leader Hu Yaobang, and he advocated for three reforms: 
Economic reform, political reform and spiritual reform. But 
unfortunately Deng Xiaoping only wanted one reform; that is, 
economic reform. We know today, looking back, it did not work. 
The most beautiful thing is not only we know it did not work, 
they know it did not work.
    It was when I learned one of the Chinese Government's 
supported economists, Zhao Xiao, came to know Christ Jesus, it 
was very powerful. He said in a recent meeting with me, in 1992 
after 1989, they had the Tiananmen massacre, there was extreme 
leftist control against the whole country. That was just--
everybody went into depression. And so Deng Xiaoping started, 
you know, to visit the south and started the reform.
    So there were a lot of people getting more wealthy, and the 
country became prosperous. However, by the time they reached 
1997, they realize that they still have a problem, and the gap 
between rich and poor became enlarged, and the corruption 
became even more vicious than ever. And so he was sent out by 
the Chinese Government's think tank to America to search for 
what would be the right way to build up this country. And he 
had a great conclusion. He said--he said as an atheist at that 
time, Zhao found God in America.
    He wrote his essay, ``Free Economy With or Without 
Church.'' With his permission, I paraphrase his findings. He 
said, what are the biggest differences between America and 
China? Was it because they differ in buildings, skyscrapers? 
No. Was it because they differed in wealth? No. Was it because 
they differed in scientific innovation? No. Was it because they 
differed in the market economy? No. Was it because they 
differed in political system? Well, not really. And so at the 
end, it was because they differed in the quantity and presence 
of the churches, which appear everywhere in every corner of 
America's cities, towns and suburbs. It was a fear of God. And 
that was absent in China.
    And the fear of God kept America's crime rate lower and 
relative governmental corruption down. It was the church and 
belief in God that kept America hopeful, peaceful and 
prosperous compared to China's economy, where people often got 
rich not because of their hard work and innovation, but through 
open robbery, with power and through connections.
    China has no good faith rule of law in business activities, 
because there is no fear of God. Particularly when they have 
power, they feel they can do whatever it takes. So certain 
people would lie and deceive each other to make quick buck. And 
there is no fear of facing God's ultimate judgment.
    That is the value, how America was founded. That is the 
value Americans unfortunately do not talk so much about 
everywhere, not in the media, not in the educational system, 
not in the economy, not in business, not in the government, not 
in foreign policy.
    To my deepest regret, it took me 20 years, 19 years after 
coming to America to finally come to find Jesus Christ through 
my own home country's Christian hero, who endured persecution, 
who suffered in prison three times where God exhibited miracles 
through his suffering.
    One time he was in prison, he refused food and water for 74 
days. We knew it was a physical miracle that he survived, he 
did not die. God enabled him to live to tell the story. The 
third time he was in prison, his legs were broken, but he heard 
God tell him to go. At 8 a.m. in the morning, he was able to 
walk through three metal gates and got to freedom, and he 
arrived to a place where the address had been given to him in 
his dream, and there the brothers and sisters received him and 
said, Brother Yun, the Lord told us you will be coming here 
today. We have prepared for you a hiding place. Within \1/2\ 
hour he was able to go to the safe place. Then, only then, he 
realized his legs were fully healed.
    Mr. Meadows. Thank you. Thank you.
    Ms. Chai. And it was this kind of experience----
    Mr. Meadows. I am out of time, so I am going to----
    Ms. Chai. Sorry.
    Mr. Meadows [continuing]. Yield back to the chairman, but 
thank you so much.
    Ms. Chai. You are very welcome. Thank you.
    Mr. Meadows. And I appreciate it. Thank you.
    Mr. Smith. Mr. Stockman.
    Mr. Stockman. Yeah. I have a question, and I don't know if 
it has been asked. I apologize, Mr. Chairman. I had to run down 
to a function.
    I want to know from our standpoint what we can do to 
facilitate more freedom of expression in China. So often, I 
think, to be honest, we are naive about what to do, and I think 
we do the wrong thing, and we typically stick our foot in our 
mouth or whatever. And I want to know from your standpoint if 
you could all just give a quick summary of what we should be 
doing, because I think that would help the chairman, myself, 
and others.
    I apologize for our ignorance, but we just look from the 
outside. And as you were a Time correspondent, I read your 
magazine at that time, and that--your magazine, by the way, has 
changed dramatically, but that is where we get our information. 
So we don't know what to do. And I apologize for that 
standpoint, but we need your feedback on that.
    Mr. Aikman. Well, forgive me for being the first to 
respond. It is a good question.
    I always think that the best thing for people to do when a 
country exercises oppression and denial of free speech over its 
own people is every time a representative of that country comes 
outside of his country or her country, and you have a chance to 
speak to that person, complain, complain, tell them this is 
wrong, this is not right, this is against civilization, it is 
against decency, it is against truth. You claim to want to have 
a great civilization. How can you have a great civilization if 
you constantly suppress truth? Grow up. And I think you have to 
be very aggressive about this.
    Mr. Wei. I think it is very important to bring freedom, 
especially Internet freedom, such as this resolution 
Representative Smith was talking about, Global Online Freedom 
Act. That is really important, and that is a very solid way to 
push for the progress of freedom in China, because nowadays the 
Chinese Government use Internet to make their suppression, but 
meanwhile the Chinese people also use Internet, and they put 
the pressure back to the Chinese Government. That is the most 
powerful way.
    However, due to lack of freedom on Internet, so therefore, 
when the government is competing with the Chinese people, the 
Chinese people are put in disadvantage than the government. 
There are lots of people whose blogs or speech on the Internet 
are very welcomed by the people; however, those speeches were 
immediately deleted by the Chinese Internet police, and so 
therefore, this effect is very limited.
    Mr. Stockman. But isn't some of the technology you speak of 
sold by the United States to China's suppression of the Chinese 
people by Yahoo, Google and other companies?
    Mr. Wei. We know there are lots of American companies, 
Internet company, doing business in China; however, they do 
accept this restriction from the Chinese Government, and 
therefore, they have a sort of censorship, which bring 
inconvenience for the Chinese citizens.
    Mr. Stockman. Mr. Chairman, by the way, you can put me on 
your bill. I appreciate that.
    Mr. Smith. Thank you very much.
    Mr. Stockman. Dr. Richardson, do you have any comments on 
how we could improve our communication?
    Ms. Richardson. I think the only suggestion I would add to 
that, partly because I think there has been tremendous interest 
shown particularly by Chinese Internet users in everything from 
photographs of Gary Locke buying his own coffee to, you know, 
the posting of tax returns of senior U.S. officials online, the 
more people like you make yourselves available for Web chats, 
make sure that important discussions get translated into 
Chinese--we are obviously big fans of the language services 
that make it possible for people inside China to listen to VOA 
and RFA--I think demonstrating how we--how people in the U.S. 
Use those mechanisms both to hold our own officials to account, 
but also to communicate with people who are interested in 
talking to people like you to normalize that idea is really 
useful and helpful.
    Mr. Stockman. Actually, I watch CCTV, and I am probably one 
of the few people who watch it.
    Go ahead. You two.
    Mr. Yang. There are a lot of things actually you can do. I 
support Mr. Wei's idea. Internet is very important for people 
to communicate to remain connected in China. And the U.S. 
Government has some funding to support development of a 
software with which the Chinese back inside China can get 
around a firewall, but I heard that very small percentage of 
the money actually put into good use. So I don't have the 
number.
    Mr. Stockman. It is shocking our Government would waste 
money.
    Mr. Yang. Yeah.
    Mr. Stockman. Never heard of that before.
    Mr. Yang. I think Congress should continue to push for that 
and to get more funding for the development of a software.
    Number two, I think there is some idea we should promote; 
that is, reciprocity. All the Chinese officials, scholars, 
whether, you know, they have opinions or views in line with the 
government or not, they can express it freely here, they can 
publish their papers here, you know, they can run Web sites and 
everything here without censorship. But when the U.S. officials 
travel in China, usually their speeches are censored. I think, 
Mr. Chairman, you have personal experience there, right?
    So I think, of course, complete reciprocity is impossible, 
but we have to promote this kind of idea. We have to insist 
that when the delegation of officials, scholars from this 
country travel in China, their speeches, their communications 
should not be censored. So that is the reciprocity idea we 
should promote.
    Ms. Chai. Yes. I am really grateful you are willing to 
stand up for those voiceless people, for the people who cannot 
act on their own behalf. So thank you.
    And it reminded me of a story, what can we do to make 
things effective for the leaders in China to receive the 
message we want them to receive? And here in Colossians 3:17, 
it says, ``Whatever you do, whether in word or deed, do it all 
in the name of the Lord Jesus, giving thanks to God the Father 
through Him.''
    I remember Bob Fu, who is not present here, and who is a 
believer, defending the prosecuted churches in China; he told 
me a story of a congressional leader, I forgot his name, that 
when he called on behalf of a few church believers who were 
being persecuted in China, the Chinese Embassy said, it is our 
internal affairs. It is not your problem. And this 
congressional leader said, it is my problem. They are my 
brothers and sisters in Christ Jesus. And there was such a 
strong silence from the Chinese leaders' side. I believe that 
word can be such a strong message, have such a heart, such 
value.
    I also heard a story when recently a senior Chinese leader 
was visited by people who believed in Christ Jesus, and when 
lunch was served, when they prayed, the Chinese leader in turn 
was in tears. He said, ``I have never heard people pray for me 
and my family in such a way, and especially I never saw anybody 
pray even for the people who make the food.'' So when we truly 
live into our beliefs, people really notice.
    Dr. Aikman has been advocating for the South African model 
for China, you know, forgiveness and truth and reconciliation. 
I also studied about that part, the history, what caused that. 
I know I studied Desmond Tutu's book about reconciliation. I 
read it from cover to cover. And also President Nelson Mandela. 
And when Nelson Mandela came out from prison after 40 years, 
his first words were, I forgive them.
    And we have to have the spirit of Jesus Christ, because he 
forgave us; therefore, we are all equal sinners. We can forgive 
each other. It is only then on that basis we can have true 
reconciliation.
    And last June 4th, I made a statement and sent out to the 
Chinese newspapers and the Chinese community, saying, ``I 
forgive them. I forgive the leaders who ordered the massacre.'' 
And today I am going to say that again: I forgive them.
    Mr. Stockman. I thank you. And also----
    Ms. Chai. And I know----
    Mr. Stockman. Go ahead.
    Ms. Chai. I know also that God dearly loves his children, 
and God is here waiting for them to know.
    Mr. Stockman. I know the home churches are growing very 
quickly.
    Ms. Chai. Supposedly 125 million people.
    Mr. Stockman. Yeah. A lot of them I know in Guanju are--the 
leaders that are very wealthy are Christians. And the only 
word--I am not great in Chinese, but the only--one of the few 
words I know is ``xie xie.'' So thank you so much for coming.
    Ms. Chai. Thank you.
    Mr. Stockman. And I just thank again the chairman for his 
wonderful leadership on this. And we continue to struggle for 
freedom, and I appreciate all your efforts. Thank you.
    Mr. Smith. Thank you, Mr. Stockman.
    Mr. Weber.
    Mr. Weber. Mr. Stockman, that is not the only word you know 
in Chinese, is it?
    I will direct this question to, I guess, everybody on the 
panel. Will the emergence of the free market, the free market, 
foster less government oppression and more human rights?
    Why don't we start down here, Dr. Richardson.
    Ms. Richardson. Well, we are a couple of decades into the 
reform era, and as several people have noted, we have seen----
    Mr. Weber. Chinese leaders get wealthy?
    Ms. Richardson. Well, we have seen extraordinary economic 
growth, but in some, I think, indirect ways has given some 
people in China more control over their daily lives, although I 
think that mostly means in a practical sense that people can 
live outside of certain kinds of state constraints.
    Mr. Weber. I mean, obviously there are different levels of 
it, because you are talking about--or Dr. Yang was, about 
provinces----
    Ms. Richardson. Right.
    Mr. Weber [continuing]. That actually some have less human 
rights violations, and you want to hit them with a different--
American companies with a different tax code. Is that what I 
understand?
    Mr. Yang. Sure.
    Mr. Weber. Okay.
    Ms. Richardson. But I would just add that I think alongside 
that economic development, that alone has brought with it some 
fairly uncorrected, serious human rights abuses, in addition to 
being a model that is essentially imposed on certain parts of 
the country who have no ability to benefit from it and who have 
no ability to opt out of it, such as in Tibet or in Xinjiang. 
So I think a rising GDP isn't necessarily indicative of a 
greater compliance with the rule of law. And as several people 
have mentioned, there----
    Mr. Weber. Well, Dr. Aikman pointed out earlier that the 
greatness of society depends on truth, honesty, and modesty. I 
kept waiting for him to say truth, justice, and the American 
way.
    But the truth of the matter is in China, those officials 
define their own truth. Now, you said they believed in 
scientific truth, but what Ms. Chai there is describing is the 
ultimate truth, the moral truth of the universe. If China 
doesn't believe in moral truth, and they get to define their 
own truth, then I would submit to you that of the two, the 
moral truth, that of the Lord Jesus, as she is pointing out, is 
indeed tantamount in having a sweeping--and I don't want to 
start preaching up here--but having a sweeping revival in 
China, and then we usher in human rights, we usher in sanctity 
of life.
    And let me just ask you all a question. Of these five 
institutions--let us take the Christian Church; let us take the 
free market that I just talked about, the free market in China; 
let us talk about world opinion; let us talk about U.S. policy, 
that would be us; and let us talk about the Chinese people--of 
those five, what is your opinion, which is the most able to 
influence the Chinese Government? I will go back through them: 
The Christian Church, the free market that we talked about, 
world opinion, U.S. policy, or Chinese people. Most 
influential.
    Mr. Aikman. Mr. Congressman, if I may respond, I think 
history has shown, amongst other things, that capitalism is 
completely compatible with authoritarian government. The Nazis 
managed to have a very authoritarian government and a very 
successful capitalist system. So capitalism was thought for a 
long time to be the catalyst for real freedom, but it didn't 
prove to be so in China.
    I think you have to change the thinking, the spiritual 
values of the civilization that contains them. And China will 
never, ever become a great power and a respected power unless 
it changes its moral values and accepts freedom, and 
reconciliation, and the values of truth and justice. I think 
nothing will happen unless those things take place.
    Mr. Weber. Dr. Yang?
    Mr. Yang. Yes, a free market, generally speaking, helps 
reduce government's repression, but the problem with China is 
there is no free market there. There is no free market there. 
There is tremendous government intervention in the market, in 
the economy. If you have a friend here who are doing business 
in China, ask him to tell you the truth of what they are doing 
there. The first thing--the first order of business they have 
to do is to try to find a relationship in the government.
    So there is no free market. There is a big gap between the 
wealthy and the poor. That is not outcome of market; that is 
outcome of politics.
    Mr. Weber. But to create that kind of free market where 
actually that gap gets closed, and, in reality, as John Kennedy 
said----
    Mr. Yang. Of course, I think the five things that you just 
pointed out all help to influence China. All--and the Chinese 
Government, but ultimately the most important factor is Chinese 
people themselves.
    Mr. Weber. So how do we get them more involved in taking 
this fight to the government leaders?
    Mr. Yang. So, you know, what we are doing today is, you 
know, one of the most important things we do. We should voice--
you know, help to voice--give a voice to those who--who cannot 
have a voice in China and try to apply pressure to the China 
Government so that they will give some space that the people's 
voice can grow in China.
    Ultimately the most important thing is the Chinese people 
themselves. They have to grow democracy forces, and democracy 
forces must become transformed into a viable opposition. And 
for all this, without international support, our work will 
become much, much more difficult.
    Mr. Weber. Is that happening?
    Mr. Yang. Yeah, it is happening.
    Mr. Weber. So--and then now you come in behind it and say 
world opinion is very important.
    Mr. Yang. Of course, world opinion----
    Mr. Weber. We have to stand up and say we support.
    Mr. Yang. Of course. China is open. China cannot close its 
door. So China is open. We get all information from the outside 
world, so the Communist leaders, they understand how democracy 
works. A lot of people have a misunderstanding, thinking that 
they don't know, you know, how democracy works, why democracy 
is good for the people of China, because--you know, sometimes 
it is because they are--simply because they do know, they know 
very well how democracy works, they resist the democratization.
    Mr. Weber. Sure.
    Mr. Yang. So I think world opinion is very important, too. 
All the five factors you point out are important, but, you 
know, ultimately we need people to grow, and we need a group of 
leaders who can transform the group----
    Mr. Weber. Who can evangelize those people.
    Mr. Yang. Yeah.
    Mr. Aikman. Literally.
    Mr. Yang. Literally.
    Mr. Weber. And we will move over to Ms. Chai.
    Ms. Chai. Thank you so much for your faith and your word of 
encouragement. I just rejoice in the fellowship you are sharing 
with us. I want to hear more and more U.S. leaders like 
yourself lift the name of Jesus up.
    You listed the five things that can influence the leaders 
of China, but I couldn't write them fast enough to list all of 
them. My general impression is, all of them are idols, and 
there is only one truth: That is Jesus Christ. And how do we 
convey that? Again, God gives a word of strategy. He said in 
Revelation: They triumph over him, which the evil----
    Mr. Weber. By the word of their mouth and their testimony.
    Ms. Chai. Amen.
    Mr. Weber. Amen.
    Ms. Chai. Amen, Jesus.
    And we have got to share our personal testimonies of how 
God's grace saved us, because the leaders of China, they are 
just like us. They are created in God's image, and they have a 
heart searching for truth.
    And I--my heart broke, because I--in 1989, in May, before 
the massacre happened, I went to search for Deng Xiaoping. I 
wanted to tell him that we are not against him. We have no 
animosity toward him. We wanted reform, we wanted peace.
    Mr. Weber. Is the church growing in China?
    Ms. Chai. Yes.
    Mr. Weber. You said 125 million?
    Ms. Chai. Absolutely.
    And I stayed until--we stayed until 6 a.m. at Tiananmen 
Square. I stayed at Tiananmen Square because I heard a rumor 
that America would come if the massacre took place, or 
something. America did not come. After 10 years, escaping to 
America, I was devastated to realize America did not come. But 
I am rejoicing: God had come to China.
    Mr. Weber. His kingdom is not of this world.
    Ms. Chai. Amen. And his kingdom cannot be shaken.
    Mr. Weber. Let's move over to Mr. Wei.
    Ms. Chai. Yes. Thank you.
    Mr. Wei. So-called with the free market, then you can get 
more human rights and democracy. That is just an excuse made up 
by big American companies who want to do business in China, yet 
they do not want to pay a price for human rights.
    Mr. Weber. Does he usually have this problem of speaking 
his mind? Go ahead.
    Mr. Wei. When there is no rule of laws, and to do business, 
one is totally reliant on some people in power, and then this 
country would never have a real, true free market.
    More than 10 years ago when we have this debate of 
permanent normal trade relations we have talked about, even we 
start the trade, and what we would have is just a true big 
capitalist class in China, but not a free market. You could 
only get a true free market and also a sizable middle class 
when there is rule of law, and there is free speech, as well as 
there is fair treatment.
    So let me emphasize what I just mentioned earlier. To have 
true freedom in China, you must have a free speech by the 
Chinese people, and that we already have a sizable netizen 
presence on the Internet, and they could put a lot of pressure 
over the Chinese Government.
    Mr. Weber. Let me say this. I am going to be through. Mr. 
Chairman, I appreciate your indulgence. Back to Dr. Aikman, who 
said that the Chinese Government fears being thrown out of 
power, as I recall, because they don't display enough 
nationalism----
    Mr. Aikman. Yes.
    Mr. Weber [continuing]. Or something to that effect. And so 
how do we get it--and I understand the importance of the 
Internet, and Ms. Chai, the free market is used by God to 
further people's countries.
    Ms. Chai. I agree.
    Mr. Weber. He lifts some up and he puts others down, by the 
way.
    Ms. Chai. I agree. Worshiping free economy alone, by God 
this is an idol.
    Mr. Weber. You and I are on the same page, sister.
    Ms. Chai. Thank you.
    Mr. Weber. What I wanted to say is what we need to be able 
to support--the Chinese people are going to have to--they are 
going to have to rise up and they are going to have to make 
this their aim and their goal and make it known to the 
government that, the Chinese Government, that they won't stand 
still for it. We are going to have to do our part, whether it 
is with trade sanctions or whether it is with encouraging 
evangelism, whether sending missionaries over there--sometimes 
I think they need to send missionaries over here--and we also 
need to be sure that we can encourage the Internet so that the 
word gets out more and more and more. But I think we need of a 
marriage, if you will, a partnership of policy, world opinion, 
Internet, and the Chinese people taking the lead in making 
their government to understand that this will no longer be 
tolerated. Is that fair?
    Mr. Aikman. If I could comment, I think one thing the 
Chinese people don't want to see is a violent upheaval in their 
own society.
    Mr. Weber. When you say ``Chinese people,'' Doctor, 
government or all Chinese?
    Mr. Aikman. All Chinese, I think. I visited China in 1993, 
and I talked to many Chinese intellectuals, some of whom had 
studied in the United States and Europe. And I said to them, 
don't you want to have political democracy in your country? And 
they said yes.
    Mr. Weber. But not at the price of bloodshed.
    Mr. Aikman. But not quickly, not quickly. Because the 
explosion of anarchy that would emerge from people who have no 
experience at self-control in a political environment, no idea 
that you have to restrain yourself and allow other people to 
have their opinions. Without those constraints among the 
people, I don't think you are ever going to have a safe 
democracy in China.
    Mr. Weber. Was it Franklin who said, ``He who trades 
security for liberty will soon have neither''?
    Mr. Aikman. That's correct, quite correct. I do not agree 
with that opinion.
    Lots of people did not realize that the Chinese people had 
to be divided into three major classes. Those super rich people 
are less than 1 percent. Of course, they do not want see any 
change in China because they really enjoy their lives. The 10 
percent of so-called middle class, their life is reasonable. 
And they are not happy with the Communist rule. However, 
indeed, for their own sake, they do not want see China into 
chaos.
    However, the very majority of Chinese who are very poor who 
cannot afford to send their children to school or have the 
medical care and whatever, they want to see China in chaos 
because that is opportunity to topple the Chinese Government 
and to have a new government to try. Those three classes are 
totally different. They do not have a common language.
    Unfortunately, when the foreign journalists or foreign 
people went to China, the Chinese Government carefully arranged 
you to meet with the first class and second class, instead of 
third class. And the very importantly, this third class, all 
they could speak out of their mind is on the Internet.
    And the very reason for the Chinese Government even within 
the government, people saying we have to reform is because they 
knew if they do not reform, the people will revolt and they 
will topple down the government. So, therefore, I know this 
friend, he is indeed a good person, try to know China better. 
But when you are in China, at least to listen to the taxi 
driver, to know what they are talking about.
    Mr. Weber. Public opinion. Listen, I have gone way too 
long. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much. Let me thank our very 
distinguished panelists for their lifelong leadership on behalf 
of Chinese human rights, rule of law and basic freedoms. You 
know, I would say to Dr. Aikman, I know you were talking about 
a very swift transfer of power. But obviously all Chinese 
people demand an immediate freedom from torture, cruel and 
degrading treatment. They demand an immediate freedom from 
religious persecution, which would include the Christians, the 
Muslim Uyghurs and the Falun Gong, who are tortured and treated 
with impunity in China today. They seek immediate freedom from 
coerced population control and forced abortion; immediate 
freedom from censorship and surveillance of people. I think the 
number that you put, Dr. Yang, was 39 million informants 
nationwide in your testimony. There must be freedom from the 
exploitation of labor, where only a few benefit from the labor 
of the many. There are so many other freedoms that need to be 
immediate and durable and sustainable.
    So I want to thank each and every one of you for your 
testimony. Our hope, I think collectively, is that President 
Obama will be very robust and very clear in his representations 
on behalf of human rights; particularly on the behalf of some 
of those who have been long suffering in the Laogai and in 
jails of China, to be free.
    He has a huge opportunity. As I think Chai Ling said, 
President Xi is brand new. He will be listening. What he hears 
ought to be what really animates the United States of America 
and so many other free countries, and that is that human rights 
are indivisible and they are every person's--every man, woman, 
and child's birthright. It belongs to them.
    So thank you for your testimonies. And this hearing is 
adjourned.
    [Whereupon, at 5:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         <F-dash>\<Hoarfrost>t<pound><star><loz><acctof>a<Rx> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         <F-dash>\<Hoarfrost>t<pound><star><loz><acctof>a<Rx> 
                     <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
